HHS/OIG, Audit - "Review of Kansass Medicaid Payments for Targeted Case
Management for the Period July 1, 2000, Through June 30, 2003," (A-07-06-03074)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review
of Kansass Medicaid Payments for Targeted Case Management for the Period July
1, 2000, Through June 30, 2003," (A-07-06-03074)
January 18, 2008
Complete
Text of Report is available in PDF format (485 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The Kansas Department of Social
and Rehabilitation Services (the State agency) did not assure that its
$61,765,693 ($37,178,661 Federal share) claim for targeted case management (TCM)
services was equal to or less than the limit specified in the State plan.
Without such assurancesupported with auditable documentationwe were unable to
express an opinion on the reasonableness of the State agencys claim for
reimbursement on the Centers for Medicare and Medicaid Services (CMS) Quarterly Medicaid Statement of Expenditures for the
Medical Assistance Program reports.
We recommended that the State agency (1) work with CMS to determine the allowability of the $61,765,693 ($37,178,661 Federal share) for the audit period
of State fiscal years 2001 through 2003 and all subsequent periods
and (2) strengthen internal controls to ensure that State plan requirements are
followed in submitting future TCM claims.  The State agency concurred with the
first recommendation and did not directly address the second recommendation.